<html>
<title> - THE FEDERAL AVIATION ADMINISTRATION'S OVERSIGHT OF FALSIFIED AIRMAN MEDICAL CERTIFICATE APPLICATIONS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  THE FEDERAL AVIATION ADMINISTRATION'S OVERSIGHT OF FALSIFIED AIRMAN 
                    MEDICAL CERTIFICATE APPLICATIONS

=======================================================================

                                (110-60)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2007

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure

                    U.S. GOVERNMENT PRINTING OFFICE
36-735                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia    JOHN L. MICA, Florida
PETER A. DeFAZIO, Oregon             DON YOUNG, Alaska
JERRY F. COSTELLO, Illinois          THOMAS E. PETRI, Wisconsin
ELEANOR HOLMES NORTON, District of   HOWARD COBLE, North Carolina
Columbia                             JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             WAYNE T. GILCHREST, Maryland
CORRINE BROWN, Florida               VERNON J. EHLERS, Michigan
BOB FILNER, California               STEVEN C. LaTOURETTE, Ohio
EDDIE BERNICE JOHNSON, Texas         RICHARD H. BAKER, Louisiana
GENE TAYLOR, Mississippi             FRANK A. LoBIONDO, New Jersey
ELIJAH E. CUMMINGS, Maryland         JERRY MORAN, Kansas
ELLEN O. TAUSCHER, California        GARY G. MILLER, California
LEONARD L. BOSWELL, Iowa             ROBIN HAYES, North Carolina
TIM HOLDEN, Pennsylvania             HENRY E. BROWN, Jr., South 
BRIAN BAIRD, Washington              Carolina
RICK LARSEN, Washington              TIMOTHY V. JOHNSON, Illinois
MICHAEL E. CAPUANO, Massachusetts    TODD RUSSELL PLATTS, Pennsylvania
JULIA CARSON, Indiana                SAM GRAVES, Missouri
TIMOTHY H. BISHOP, New York          BILL SHUSTER, Pennsylvania
MICHAEL H. MICHAUD, Maine            JOHN BOOZMAN, Arkansas
BRIAN HIGGINS, New York              SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
JOHN T. SALAZAR, Colorado            JIM GERLACH, Pennsylvania
GRACE F. NAPOLITANO, California      MARIO DIAZ-BALART, Florida
DANIEL LIPINSKI, Illinois            CHARLES W. DENT, Pennsylvania
DORIS O. MATSUI, California          TED POE, Texas
NICK LAMPSON, Texas                  DAVID G. REICHERT, Washington
ZACHARY T. SPACE, Ohio               CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              JOHN R. `RANDY' KUHL, Jr., New 
BRUCE L. BRALEY, Iowa                York
JASON ALTMIRE, Pennsylvania          LYNN A WESTMORELAND, Georgia
TIMOTHY J. WALZ, Minnesota           CHARLES W. BOUSTANY, Jr., 
HEATH SHULER, North Carolina         Louisiana
MICHAEL A. ACURI, New York           JEAN SCHMIDT, Ohio
HARRY E. MITCHELL, Arizona           CANDICE S. MILLER, Michigan
CHRISTOPHER P. CARNEY, Pennsylvania  THELMA D. DRAKE, Virginia
JOHN J. HALL, New York               MARY FALLIN, Oklahoma
STEVE KAGEN, Wisconsin               VERN BUCHANAN, Florida
STEVE COHEN, Tennessee
JERRY McNERNEY, California
VACANCY

                                  (ii)

  


                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

BOB FILNER, California               THOMAS E. PETRI, Wisconsin
LEONARD L. BOSWELL, Iowa             HOWARD COBLE, North Carolina
RICK LARSEN, Washington              JOHN J. DUNCAN, Jr., Tennessee
RUSS CARNAHAN, Missouri              VERNON J. EHLERS, Michigan
JOHN T. SALAZAR, Colorado            STEVEN C. LaTOURETTE, Ohio
DANIEL LIPINSKI, Illinois            FRANK A. LoBIONDO, New Jersey
NICK LAMPSON, Texas                  JERRY MORAN, Kansas
ZACHARY T. SPACE, Ohio               ROBIN HAYES, North Carolina
BRUCE L. BRALEY, Iowa                SAM GRAVES, Missouri
HARRY E. MITCHELL, Arizona           JOHN BOOZMAN, Arkansas
JOHN J. HALL, New York               SHELLEY MOORE CAPITO, West 
STEVE KAGEN, Wisconsin               Virginia
STEVE COHEN, Tennessee               JIM GERLACH, Pennsylvania
NICK J. RAHALL, II, West Virginia    MARIO DIAZ-BALART, Florida
PETER A. DeFAZIO, Oregon             CHARLES W. DENT, Pennsylvania
ELEANOR HOLMES NORTON, District of   TED POE, Texas
Columbia                             DAVID G. REICHERT, Washington
CORRINE BROWN, Florida               CONNIE MACK, Florida
EDDIE BERNICE JOHNSON, Texas         JOHN R. `RANDY' KUHL, Jr., New 
ELLEN O. TAUSCHER, California        York
TIM HOLDEN, Pennsylvania             LYNN A WESTMORELAND, Georgia
MICHAEL E. CAPUANO, Massachusetts    MARY FALLIN, Oklahoma
DORIS O. MATSUI, California          VERN BUCHANAN, Florida
MAZIE K. HIRONO, Hawaii              JOHN L. MICA, Florida
VACANCY                                (Ex Officio)
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi
Committee Report on Falsification of Airman Medical Certificate 
  Applications...................................................     x

                               TESTIMONY

Boyer, Phil, President, Aircraft Owners and Pilots Association, 
  Frederick, MD..................................................    23
Garber, Mitchell A., M.D., M.P.H., M.S.M.E., Medical Officer, 
  National Transportation Safety Board...........................     3
Sabatini, Hon. Nicholas A., Associate Administrator for Aviation 
  Safety, Federal Aviation Administration, accompanied by 
  Frederick E. Tilton, M.D., M.P.H., Federal Air Surgeon, 
  Director, Office of Aerospace Medicine, Federal Aviation 
  Administration.................................................     3
Scovel, III, Hon. Calvin L., Inspector General, U.S. Department 
  of Transportation..............................................     3

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    27
Matsui, Hon. Doris O., of California.............................    30
Mitchell, Hon. Harry E., of Arizona..............................    33
Oberstar, Hon. James L., of Minnesota............................    36

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Boyer, Phil......................................................    40
Garber, Mitchell A...............................................    61
Sabatini, Nicholas A.............................................   107
Scovel III, Calvin L.............................................   119

                       SUBMISSIONS FOR THE RECORD

Boyer, Phil, President, Aircraft Owners and Pilots Association, 
  Frederick, MD, responses to questions from the Subcommittee....    55
Garber, Mitchell A., M.D., M.P.H., M.S.M.E., Medical Officer, 
  National Transportation Safety Board, responses to questions 
  from the Subcommittee..........................................    66
Sabatini, Hon. Nicholas A., Associate Administrator for Aviation 
  Safety, Federal Aviation Administration, accompanied by 
  Frederick E. Tilton, M.D., M.P.H., Federal Air Surgeon, 
  Director, Office of Aerospace Medicine, Federal Aviation 
  Administration, reponses to questions from the Subcommittee....   112
Scovel III, Hon. Calvin L., Inspector General, U.S. Department of 
  Transportation, responses to questions from the Subcommittee...   131

                        ADDITIONS TO THE RECORD

Federal Aviation Administration's 2006 Survey of Satisfaction 
  with the Aviation Medical Examination Process..................   138
Federal Register, Department of Transportation, Federal Aviation 
  Administration, 14 CFR Parts 61 and 67.........................   140
James R. Vanderpool, ANM-700, Northwest Mountain Division Manager 
  (Retired), written statement...................................   150

[GRAPHIC] [TIFF OMITTED] T6735.001

[GRAPHIC] [TIFF OMITTED] T6735.002

[GRAPHIC] [TIFF OMITTED] T6735.003

[GRAPHIC] [TIFF OMITTED] T6735.004

[GRAPHIC] [TIFF OMITTED] T6735.005

[GRAPHIC] [TIFF OMITTED] T6735.006

[GRAPHIC] [TIFF OMITTED] T6735.007

[GRAPHIC] [TIFF OMITTED] T6735.008

[GRAPHIC] [TIFF OMITTED] T6735.009

[GRAPHIC] [TIFF OMITTED] T6735.010

[GRAPHIC] [TIFF OMITTED] T6735.011

[GRAPHIC] [TIFF OMITTED] T6735.012

[GRAPHIC] [TIFF OMITTED] T6735.013

[GRAPHIC] [TIFF OMITTED] T6735.014

[GRAPHIC] [TIFF OMITTED] T6735.015

[GRAPHIC] [TIFF OMITTED] T6735.016

[GRAPHIC] [TIFF OMITTED] T6735.017

[GRAPHIC] [TIFF OMITTED] T6735.018



  HEARING ON FAA'S OVERSIGHT OF FALSIFIED AIRMAN MEDICAL CERTIFICATE 
                              APPLICATIONS

                              ----------                              


                         Tuesday, July 17, 2007

                   House of Representatives
    Committee on Transportation and Infrastructure,
                                  Subcommittee on Aviation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2253, Rayburn House Office Building, the Honorable Jerry 
F. Costello [Chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all Members, staff, and everyone to turn their 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to hear testimony on the 
FAA's oversight of falsified Airman Medical Certificate 
applications.
    The Chair will give a brief statement, recognize Mr. Petri, 
the Ranking Member, and any other Member that wants to make a 
statement, and then we will introduce our witnesses today.
    I welcome everyone here today to this hearing on the FAA's 
oversight of falsified Airman Medical Certificate applications.
    In July 2005, the Department of Transportation's Inspector 
General found egregious cases of pilots failing to disclose 
debilitating medical conditions on their applications for 
Airman Medical Certificates. The U.S. Attorney's Office 
prosecuted more than 40 cases, but hundreds more could have 
been pursued if adequate resources had been available. The 
Department of Transportation Inspector General made three 
recommendations in that report, and the FAA is actively 
pursuing those recommendations.
    In April 2007, the FAA began working to implement a 
strategy and system to coordinate with the Social Security 
Administration to verify information on Airman Medical 
Certificate applications. Further, the FAA is revising its 
application form to explicitly ask the applicant if they are 
receiving medical disability benefits. Both are important 
changes, and I am interested in hearing more from Mr. Sabatini 
and Mr. Scovel on this development.
    The FAA has some of the strictest medical requirements in 
the world. By taking the necessary steps to improve the 
process, by establishing a way to verify medical information 
reported to the FAA, we can continue to ensure the safety of 
the pilot and the flying public.
    I am also pleased that Mr. Boyer, Phil Boyer, is here today 
to testify from AOPA. AOPA is the largest civil aviation 
organization in the world, and they have developed a four-point 
plan of action to educate pilots to address this problem. I am 
interested in hearing more about the plan from Mr. Boyer when 
he testifies.
    I have repeatedly said that, while the United States has 
the safest air transportation system in the world, we cannot 
rely on or be satisfied with our past success. We must work 
together to ensure the highest level of safety for the 
traveling public.
    Before I recognize Mr. Petri for his comments or opening 
statement, I ask unanimous consent to allow two weeks for all 
Members to revise and extend their remarks, and to permit the 
submission of additional statements and materials by Members 
and witnesses. Without objection, so ordered.
    At this time, the Chair recognizes the Ranking Member, Mr. 
Petri.
    Mr. Petri. Thank you very much, Mr. Chairman. I would like 
to join you in welcoming the witnesses this morning and saying 
that I look forward to learning more about the Department of 
Transportation's Office of the Inspector General investigation 
into falsified FAA Airman Medical Certificate applications. I 
guess they are called Operation Safe Pilot.
    The vast majority of pilots are law-abiding citizens. 
However, the Inspector General's investigation indicates that, 
whether knowingly or not, some pilots have made false 
statements on their Airman Medical Certificate applications. 
These applications are used to evaluate a pilot's physical and 
mental fitness to fly.
    Of the 40,000 pilot samples considered in Operation Safe 
Pilot, the Inspector General prosecuted 45 of the most 
egregious cases, ultimately resulting in criminal penalties and 
the revocation of pilots' licenses. Forty-five pilots whose 
cases were brought to prosecution were receiving Social 
Security Administration medical disability benefits for 
disqualifying conditions without reporting those medical 
conditions on the application for a medical certificate.
    There may have been more criminal cases, but resource 
limitations prevented the U.S. Attorney's Office and the 
Inspector General from expanding the investigation.
    It is important to note that the true nature of the problem 
is still not clear. Regardless, I look forward to hearing from 
our panelists on how we can address these issues in a manner 
that is appropriate to the level of risk these types of 
omissions pose to the safety of the system and to the public on 
the ground.
    It is my understanding that the FAA is considering a 
revision to the application for the Airman Medical Certificate. 
Changes to the application will make questions clearer so that 
a pilot could not justify an omission based on the wording of a 
question. I am interested to hear the progress on this effort, 
as well as an estimate of the cost of reviewing and evaluating 
medical conditions.
    About 20 years ago, the FAA offered a brief amnesty period 
to allow both commercial and recreational fliers the 
opportunity to come forward and report ailments without being 
subjected to criminal penalties for the omission. I am 
interested in hearing from our panel as to whether allowing 
another brief amnesty period would make sense.
    Amnesty only works when there is some threat of enforcement 
after the amnesty period closes. Given the resources available 
in the budget, would it be possible for the FAA to audit all of 
the 600,000 commercial and recreational pilot applications, or 
would such action divert resources away from higher risk safety 
initiatives? Perhaps the FAA could audit a percentage of the 
applications each year. That way there is always the risk that, 
if you falsify, you could get caught. It works for the IRS. Why 
not FAA?
    In any event, I would like to thank our witnesses for 
participating in today's hearing, both our government witnesses 
and one of the user groups, the Aircraft Owners and Pilots 
Association. AOPA is one of our great partners in the effort to 
keep the skies safe, and I appreciate their participation in 
today's hearing.
    With that, I yield back the balance of my time.
    Mr. Costello. The Chair thanks the Ranking Member and, at 
this time, would first welcome our witnesses and thank you all 
for being here today. Let me introduce our first panel.
    First, the Honorable Calvin Scovel III, who is the 
Inspector General for the U.S. Department of Transportation, 
who has testified before this Subcommittee many times and who 
shared tenure as the IG; Dr. Mitchell Garber, who is the 
Medical Officer for the National Transportation Safety Board; 
the Honorable Nicholas Sabatini, who is the Associate 
Administrator for Aviation Safety with the FAA, and Mr. 
Sabatini has testified many times before the Subcommittee; and 
Dr. Frederick Tilton, who is the Federal Air Surgeon for the 
Director of the Office of Aerospace Medicine with the FAA, who 
is accompanying Mr. Sabatini here this morning.
    The Chair, at this time, would recognize Mr. Scovel for 
your testimony.

  TESTIMONY OF THE HONORABLE CALVIN L. SCOVEL III, INSPECTOR 
GENERAL, U.S. DEPARTMENT OF TRANSPORTATION; MITCHELL A. GARBER, 
       M.D., M.P.H., M.S.M.E., MEDICAL OFFICER, NATIONAL 
    TRANSPORTATION SAFETY BOARD; THE HONORABLE NICHOLAS A. 
SABATINI, ASSOCIATE ADMINISTRATOR FOR AVIATION SAFETY, FEDERAL 
 AVIATION ADMINISTRATION, ACCOMPANIED BY FREDERICK E. TILTON, 
    M.D., M.P.H., FEDERAL AIR SURGEON, DIRECTOR, OFFICE OF 
      AEROSPACE MEDICINE, FEDERAL AVIATION ADMINISTRATION

    Mr. Scovel. Mr. Chairman, Ranking Member Petri, Members of 
the Subcommittee, we appreciate the opportunity to testify 
today regarding falsification of the FAA's application for 
Airman Medical Certificate. Our testimony today is primarily 
based on an investigation called Operation Safe Pilot, which we 
conducted with the Social Security Administration's Office of 
Inspector General and U.S. Attorney Offices in California. The 
investigation focused on pilots who represented to FAA that 
they were medically fit to fly, while at the same time claiming 
medical disability benefits.
    Today, Mr. Chairman, I would like to discuss three key 
points, as we see them, for mitigating the safety risks posed 
by airmen who falsify their Airman Medical Certificate 
applications.
    First, it is important to recognize that the Airman Medical 
Certification Program is an essential safeguard to ensure that 
pilots are medically fit to fly. FAA requires that each pilot 
have a valid medical certificate before being allowed to 
operate an aircraft. To receive a medical certificate, pilots 
must complete an Airman Medical Certificate application and be 
examined by an FAA-designated Aviation Medical Examiner. Those 
who meet the appropriate medical standards based on an in-
person medical examination and an evaluation of medical history 
are issued a medical certificate. As of June 2007, FAA's 
database showed there were over 625,000 pilots with current 
Airman Medical Certificates.
    The Federal Air Surgeon has identified certain medical 
conditions that specifically disqualify an individual from 
receiving a medical certificate because those conditions could 
compromise a pilot's ability to safely operate an aircraft. 
These conditions include neurological and psychiatric 
disorders.
    Second, our investigation, Operation Safe Pilot, disclosed 
a potential systemic problem regarding falsification of medical 
certificates that requires greater attention and oversight by 
FAA. In 2003, our office initiated Operation Safe Pilot to 
determine whether a scheme uncovered in 2002 reflected a 
systemic problem. In the 2002 case, we determined that a pilot 
in California had defrauded both FAA and Social Security by 
making false statements to doctors for the purpose of 
maintaining his FAA private pilot certificate while obtaining 
Social Security benefits. For approximately 14 years, this 
pilot had used two different doctors, one to conclude that he 
was in good physical health in order to maintain his Airman 
Medical Certificate, and one to diagnose him with a disabling 
disease in order to fraudulently receive Social Security 
benefits. He was ultimately convicted of fraud and sentenced to 
serve a 21 month prison term and pay nearly $200,000 in 
restitution.
    Operation Safe Pilot began with a universe of about 40,000 
pilots residing in Northern California. We focused our 
investigative efforts on a smaller group of 48 pilots who were 
receiving Social Security disability benefits. At our request, 
the FAA Regional Flight Surgeon reviewed case files for those 
pilots and determined they would not have passed the airman 
medical examination had the examining physicians known about 
the pilots' disqualifying medical conditions.
    The U.S. Attorney's Office initiated criminal prosecutions 
against all 48 pilots, 45 of whom were convicted of making 
false statements to FAA. In all 48 cases the pilots failed to 
notify FAA about their well documented, severe, pre-existing 
medical conditions. Many of those pilots had multiple 
disqualifying conditions, with the most common condition being 
some type of mental disorder such as schizophrenia.
    In addition to Operation Safe Pilot, both the NTSB and FAA 
have published reports showing that pilots often did not 
disclose serious medical conditions which sometimes resulted in 
accidents and fatalities. For example, a May 2006 FAA research 
report of post-mortem toxicology for 4,143 pilots who died in 
aviation accidents between 1993 and 2003 found that nearly 10 
percent were taking some type of psychotropic, cardiovascular, 
or neurological medication not reported on their Airman Medical 
Certificate applications. The report's authors essentially 
concluded that pilots who took certain types of medications and 
were involved in fatal accidents rarely reported those 
medications and their underlying medical conditions to FAA.
    Third, FAA can take several actions to ensure that disabled 
pilots do not circumvent the medical certification process. In 
July 2005, we sent a memorandum to the DOT Secretary and FAA 
Administrator highlighting the results of Operation Safe Pilot. 
We pointed out that FAA did not have a mechanism for 
identifying certificated pilots who were receiving medical 
disability benefits. We recommended that FAA work with the 
Social Security Administration and other Federal disability 
providers to, one, develop and implement appropriate checks and 
take enforcement actions; and, two, consider revising its 
application for Airman Medical Certificates to require 
applicants to explicitly identify whether they are receiving 
medical disability benefits.
    In April 2007, FAA initiated discussions with Social 
Security to match the FAA database of pilots against relevant 
Social Security databases. Both agencies have been discussing 
how such a process could be structured under the Privacy Act to 
ensure compliance with law. FAA has also expressed its 
intention to revise the application for Airman Medical 
Certificate to explicitly ask about the receipt of medical 
disability benefits.
    These are appropriate first steps. In our opinion, FAA 
should also consider two additional measures: one, conduct an 
education and outreach effort to ensure pilots are fully aware 
of their responsibilities for accurately disclosing their 
medical histories on the Airman Medical Certificate 
application; and, two, offering a grace period to pilots who 
self-identify previously undisclosed medical conditions. FAA, 
however, would need to make it absolutely clear that all 
medical conditions disclosed would be evaluated and, unless 
pilots were found at that time to be medically fit to fly, 
their Airman Medical Certificates would be subject to 
revocation.
    That concludes my statement, Mr. Chairman. I would be 
pleased to address any questions you or other Members of the 
Subcommittee may have.
    Mr. Costello. The Chair thanks you and recognizes Dr. 
Garber for his testimony.
    Dr. Garber. Good morning, Chairman Costello, Chairman 
Oberstar, Ranking Member Petri, and Members of the 
Subcommittee. Thank you for allowing me the opportunity to 
present testimony on behalf of the National Transportation 
Safety Board regarding Federal Aviation Administration's 
oversight of falsified Airman Medical Certificate applications. 
It is a privilege to represent an agency that is dedicated to 
the safety of the traveling public.
    On June 17th, 2002, an aircraft operated by a commercial-
rated pilot performing wolf survey flights under contract to 
the Michigan Department of Natural Resources descended at high 
speed into terrain. The pilot and his personal physician, who 
later became his aviation medical examiner for many years, had 
concealed from the FAA information regarding the pilot's 
multiple, serious medical conditions on seven applications for 
Airman Medical Certificates. The pilot's physician had denied 
knowing the pilot when the FAA was investigating a report that 
the physician was treating him for these conditions.
    At the time of the accident, the pilot's physician had been 
decertified as an aviation medical examiner for failure to 
complete required training, and the pilot did not have a 
current medical certificate, having been deferred for 
certification by a new aviation medical examiner who noted some 
abnormal heart rhythms on examination. The Safety Board 
concluded that the accident was caused by the incapacitation of 
the pilot and that a contributing factor was the pilot and his 
physician providing false information on the pilot's medical 
applications.
    A recent staff review of over 20,000 aviation accidents 
investigated since 1995 found 327 in which impairment, 
incapacitation, or a medical condition were identified as 
causes or factors. Medications and substances of abuse were 
each found in over 100 of these cases. In 26 of these cases, it 
was determined that a pilot with a current medical certificate 
and a known medical condition had information regarding that 
condition that was not revealed to the FAA at the time of the 
most recent application for medical certificate.
    It is important to note that these numbers are certainly an 
underestimate of the extent to which this issue is involved in 
accidents. In many cases, there is insufficient evidence 
available to completely evaluate the possibility of impairment 
or incapacitation.
    The Safety Board is fortunate to benefit from the resources 
of the FAA Toxicology Laboratory at the Civil Airspace Medical 
Institute, likely the finest toxicology laboratory in the world 
for analysis of specimens for accident investigations. We are, 
therefore, often able to determine that a pilot used a specific 
substance in the hours or days preceding the accident, most 
frequently a substance that was not reported to the FAA.
    The Safety Board has been concerned for many years 
regarding the inappropriate use of certain medications by 
pilots and other vehicle operators and, in 2000, issued 
comprehensive recommendations on this topic to the Department 
of Transportation, the Food and Drug Administration, and modal 
agencies to improve information provided to such operators 
regarding the use of appropriate medications while engaged in 
vehicle operations. Although some modal agencies have taken 
responsive actions, the overall response to date from the DOT 
and the FAA has been limited, and the majority of the 
recommendations on this topic have not been implemented.
    The Safety Board has also noted that, with many accidents 
due to a pilot's intoxication by alcohol, illicit substances, 
or large amounts of potentially addictive medications, the FAA 
was or should have been aware of information that would have 
led them to conclude that the pilot was substance dependent and 
would have restricted issuance of a medical certificate. In 
particular, the Board has noted a number of instances in which 
the FAA did not request details of an identified DUI conviction 
in order to determine the circumstance of that violation.
    Additionally, the Board has found that the information 
available to the FAA on potentially substance-dependent pilots 
was often not provided to individuals evaluating the pilots for 
possible substance dependence. Furthermore, the Board is 
concerned that, unlike other chronic conditions, the FAA does 
not now routinely require that pilots with substance dependence 
be followed for the condition for the period that they hold 
their medical certificate. The Board has recently issued 
several recommendations to address these deficiencies.
    Finally, the Safety Board notes that, unlike many other 
countries, and inconsistent with the International Civil 
Aviation Organization recommendations, there is no requirement 
for the reporting of medical conditions in between periodic 
examinations. This significantly increases the complexity of 
establishing that a condition was concealed from the FAA, since 
it may not have become apparent until after the most recent 
medical examination. The FAA has recently proposed increasing 
the interval between medical examinations for certain pilots 
and the Safety Board has noted in its comments to that NPRM 
that a reporting requirement in between examinations would be 
desirable.
    This concludes my prepared statement, and I would be happy 
to answer any questions.
    Mr. Costello. Thank you, Dr. Garber.
    The Chair recognizes Mr. Sabatini.
    Mr. Sabatini. Good morning, Chairman Costello, Chairman 
Oberstar, Congressman Petri, and Members of the Subcommittee. I 
am pleased to appear before you today to discuss the Federal 
Aviation Administration's oversight of the Airman Medical 
Certification application process.
    Let me assure you that the FAA takes this matter seriously, 
and we are very concerned about any falsification of 
information on Airman Medical applications. Let me also say 
that the vast majority of our nation's pilots are honest, 
dedicated, and have contributed significantly to our current 
unprecedented safety record.
    FAA agrees with the recommendations of the Inspector 
General on falsified Airman Medical applications, and we are 
taking steps to implement those recommendations, as I will 
discuss. We are also taking other proactive steps regarding 
this issue, which I will also discuss.
    As you are aware, the Department of Transportation 
Inspector General issued a report in 2005 describing the 
results of an investigation known as Operation Safe Pilot. I 
will not spend time discussing the details of the IG's 
findings; they are already well known to you. However, I will 
discuss the IG's recommendations and the FAA's response to 
those recommendations.
    The Inspector General recommended that FAA work with the 
Social Security Administration and other disability benefits 
providers to develop and implement a strategy to conduct checks 
of applicants for Airman Medical Certificates with the 
databases of those disability benefits providers and take 
appropriate enforcement actions where falsifications are found. 
The IG also recommended that FAA consider revising our 
application for Airman Medical Certificate to require 
applicants to explicitly identify whether they are receiving 
medical disability benefits from any provider.
    I am pleased to inform you that the FAA is moving forward 
to implement both of the IG's recommendations. FAA is working 
to develop a program in cooperation with the Office of the 
Inspector General for the Social Security Administration to 
cross-check randomly selected applicants for FAA Airman Medical 
Certificates with the Social Security disability database to 
determine if any applicants are receiving disability from the 
Social Security Administration.
    I must emphasize that we are still working with the Social 
Security Administration's IG's Office and the Social Security 
Administration itself to determine what information they are 
willing to grant us access to and then develop a framework for 
how such checks will be conducted. We hope to start by cross-
checking applicants to the Social Security Administration 
databases because, to receive Social Security disability 
benefits, an individual must be totally disabled. Thus, 
virtually any applicant who is receiving Social Security 
Administration disability benefits will necessarily have a 
condition that would disqualify the applicant from holding an 
Airman Medical Certificate from the FAA.
    While it is premature to discuss any future expansion of 
the cross-checking of applicants to disability databases other 
than the Social Security Administration, we would have to 
carefully consider the potential resources required to conduct 
investigations and make medical determinations regarding an 
applicant's disability and whether that condition disqualifies 
the applicant from holding an Airman Medical Certificate before 
taking such a step.
    In order to proceed with cross-checking applicants for 
Airman Medical Certificates against the Social Security 
Administration disability database or any other database, FAA 
must first make a change in the policy allowing routine use of 
private information. This will require publishing a notice of 
the proposed change in the Federal Register and a comment 
period before the change can be implemented and FAA could begin 
any cross-checking. This process might take six to twelve 
months to complete.
    However, we will immediately begin efforts to implement the 
IG's second recommendation, the addition of a question to the 
Airman Medical Certificate application regarding disability 
benefits. The FAA will propose to OMB the change to the 
application form to include the question. Upon approval from 
OMB, the new application form can be printed and distributed to 
Airman Medical Examiners nationwide.
    We are proposing to change the Airman Medical Certificate 
application to add a question specifically asking if the 
applicant is receiving any disability benefits. While this 
additional question appears straightforward, the investigative 
work will begin after a positive response to the question. Once 
an applicant indicates he or she is receiving disability 
benefits, FAA would then have to investigate to determine the 
disability benefits provider, the condition for which the 
applicant is receiving disability benefits, and the extent of 
the applicant's disability.
    FAA is also being proactive in other areas regarding 
falsification of data on Airman Medical Certificate 
applications. The FAA Civil Aerospace Medical Institute has now 
developed an integrated scientific information system that will 
provide a continuous monitoring of all Airman Medical 
Certification records compared to aviation accidents or 
incidents and post-mortem toxicology reports.
    The FAA will, therefore, have the capability of 
continuously monitoring any aircraft accidents and accessing 
any discrepancy between the information on the certificate and 
any post-mortem findings. This includes prescription and non-
prescription medications and medical abnormalities that could 
affect the ability to safely perform duties permitted by the 
Airman Certificate and which are related to the National 
Transportation Safety Board causal accident factors.
    In 2006, the FAA's Office of Aerospace Medicine initiated a 
routine process analysis study to evaluate and improve the 
efficiency of airman medical certification within the FAA. The 
Airman Medical Examiner Airman Certification Quality Assurance 
Study evaluates the accuracy of AMEs in determining the 
suitability of Airman Medical certification. It is another tool 
that will assist the FAA in monitoring this issue. We are 
committed to expanding our efforts to review medical 
certificates and pursue appropriate enforcement actions when 
falsifications are discovered.
    Let me conclude, Mr. Chairman, by stating that the FAA's 
first priority always has been and always will be safety. 
Safety is our agency's mission, and we have dedicated our 
careers to promoting safety. It is a responsibility we do not 
take lightly.
    This concludes my statement, and I would be happy to answer 
any questions the Committee may have.
    Mr. Costello. The Chair thanks you, Mr. Sabatini.
    At this time, the Chair recognizes the distinguished 
Chairman of the Full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman, for holding the 
hearing; and, Mr. Petri, for your participation, your support 
of this initiative; and our staff for their extraordinarily 
rigorous inquiry undertaken, beginning early this year, into 
this issue of falsified medical certificates.
    I read over, last night and early this morning, the 
testimony of all the witnesses, and I am very encouraged by 
what I see. The response of FAA to the issue is a positive one 
and encouraging.
    We do have the safest aviation system in the world. We do 
have the most complex aviation system in the world. But the 
fact that a number of certificated pilots have lied about grave 
medical conditions in order to retain their pilot's license is 
troublesome, worrisome, and in some cases, perhaps frightening. 
Surely, we can appreciate and be grateful for the statistics 
that the number of fatal accidents caused by medical 
incapacitation are low. But we shouldn't have to rely on the 
grace of God to get there.
    A single impaired, intoxicated pilot could cause extensive 
and widespread damage to the public through loss of life or 
property damage. That is what the FAA wrote in an earlier 
rulemaking. FAA does require pilots to undertake periodic 
medical exams for fitness, but they are limited; they rely 
heavily on self reporting, and not all medical conditions are 
going to be obvious to a doctor who is seeing a patient for the 
first time, especially in the case of mental illness. And not 
all of these AMEs are as thorough as they should be.
    The 2006 FAA survey, the Medical Service Airman Customer 
Satisfaction Survey--they have got these wonderful long words 
and usually they come down to an acronym--found that 15 percent 
of airmen reported their medical history had not been reviewed 
by their medical examiner. Seventy-nine percent had no medical 
history review done at all of that small 15 percent sample. But 
if you extrapolate that survey result to the entire pilot 
population, it could be in 1986 that 89,000 pilots did not have 
an AME review their medical histories, and nearly 24,000 pilots 
did not have a physical exam done by an AME.
    Now, the reason we have this AME process is so you have 
persons who are designated by the FAA who know what they are 
looking for, know what questions to ask, know what kind of exam 
to give, and they should not be subverted or averted.
    Inspector General Scovel, in 2005, your office found 
egregious cases of airmen lying to the FAA about medical 
conditions in order to pass their medical exams. In the 40,000 
pilot sample, the IG's Office found 3,200 airmen with current 
medical certificates simultaneously receiving Social Security 
disability pay. Forty of those cases ultimately were 
prosecuted, but hundreds more could have been prosecuted if 
they had had enough personnel in the U.S. Attorney's Office to 
do it.
    Over a 10 year period, FAA's own researchers found 400 
fatal accidents where pilots had potentially disqualifying 
medical conditions. I note with interest in Mr. Sabatini's 
testimony, his more detailed testimony, that FAA has gone 
through these and reduced it down to a very small number, small 
fraction; that if those exams had been done and if corrective 
actions had taken, and if a number of other things had 
happened, you would have had a fraction of a percent of 
irregular medical conditions. But that is not good enough and I 
think, Mr. Sabatini, you recognize that, and you have agreed to 
coordinate with the Social Security Administration.
    In Social Security determination, if you are disabled, you 
are 100 percent disabled. Not so with the VA, which has 
gradations of disability. Some VA disability conditions may 
permit a person to continue to fly, but that is going to take 
very careful review. It is going to take very careful 
consideration of all those varying medical conditions.
    I appreciate the seriousness with which Mr. Sabatini, Mr. 
Chairman, undertakes his responsibilities. He is a premier 
safety professional. But bringing together the National Driver 
Register, notifying airmen that they are subject to review 
through the National Driver Register I think is an important 
point. I am the author of the National Driver Register, over 26 
years ago. Well, not quite the author; it was John Rhodes who 
preceded me by six years. But I did upgrade the National Driver 
Register and brought it to what it is today, and I think it is 
an exceptionally valuable tool in getting the full picture of 
airmen's conditions.
    So I think, while this process has been uncomfortable, 
maybe even painful for the FAA, thanks to the Inspector 
General's Office, thanks to the NTSB, thanks to our 
investigative staff, the issues have been raised, they have 
surfaced, they have been examined, they have been evaluated, 
and FAA is on track to taking some vigorous steps toward 
resolution of the problem and creating an even safer airspace.
    I will have some questions later. Thank you, Mr. Chairman.
    Mr. Costello. Thank you.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you very much. Thank you all for your 
testimony. This is an important subject, as the Chairman of the 
Full Committee has pointed out, and it is good that we have 
oversight on it.
    I wonder, maybe Mr. Sabatini might be the right one, if you 
could just sort of walk us through how the procedure works now 
and whether this episode or whatever has pointed out some ways 
of improving the procedure because of computerization and 
opportunities for cooperation between agencies and the like.
    Mr. Sabatini. The current system today requires that in 
order to exercise the privileges of an Airman Certificate, one 
must have an appropriate medical certificate to accompany those 
privileges. Depending on the class of medical certificate, 
nonetheless, one must complete an application which has a host 
of questions, one of which specifically requires that you 
answer whether or not you have been convicted of a DUI, or 
driving while under the influence, and, in that instance, 100 
percent of medical applications are matched or cross-checked 
with the National Driver Registry. If there is a positive hit, 
then there is a follow-up investigation that is conducted to 
assess that situation.
    The system is dependent on pilots being honest, and if 
someone is intent on defrauding the system, as the Inspector 
General has discovered, then certainly that is possible. So the 
current system could stand to_as we have agreed_to have some 
improvements included, one of which is going to be adding a 
question to the questionnaire that specifically requires an 
answer to whether or not you are receiving disability benefits 
from any disability provider. And we will then, on a sampling 
basis, compare that with, starting with the Social Security 
Administration, a records match; and, of course, then follow-up 
investigation in that regard.
    We are also proposing to not only do the cross-checking, 
but also to add the question, and we are strong advocates of 
educating the community in the many different ways that we can 
do that. So we can advise the community that this is now going 
to be on the medical certificate and make them aware that there 
is the potential for serious follow-up in terms of enforcement, 
whether it is from the criminal side or whether it is ours, 
from an administrative procedures side. We will vigorously 
follow up any indication that there is misrepresentation of 
one's medical condition.
    Mr. Petri. There have been stories in the press from time 
to time--I suppose they are accurate, though may be 
exaggerated--indicating that when people retire from the 
military or even from various civilian jobs, like being a bus 
driver or so on, they often discover they have some disability 
and that increases their retirement under some of the programs. 
I don't know how widespread that is in the Air Force or among 
pilots, but is that checked?
    Mr. Sabatini. We do not now, today, have a method in place 
to check exactly what it is that you have suggested. But I 
would also tell you that is--and I don't have factual 
information, but I can tell you anecdotally that we know that 
there are military retirees who have a percentage of disability 
that, in and of itself, would not necessarily mean being 
disqualified, or having a condition that would prohibit the 
issuance of an FAA medical certificate. So we don't have any 
numbers on that, Mr. Petri, and that is the current state, but 
we hope to change that.
    Mr. Petri. One question. This works both ways, with Social 
Security, at least, and some of these other programs; people 
may be perfectly good pilots, but they may not actually have 
the disability that they are getting paid for. Was fraud 
discovered that way as this match was done, or was it only a 
check on the qualification of people to actually fly airplanes?
    Mr. Sabatini. The investigation_and I might defer to the 
Inspector General who conducted the investigation_was primarily 
to assess people who were claiming disability and who also had 
a pilot medical certificate. And Social Security Administration 
disability is 100 percent disability, and once you have that, 
you would not qualify for an FAA medical certificate, so that 
would be a concern to us and we would want to ferret that 
information out.
    Mr. Petri. Maybe I should ask Mr. Scovel.
    Mr. Scovel. Thank you, Mr. Petri. I do have some 
information that may help you understand the extent of that 
problem. We touched base last week with the Social Security 
Administration Office of Inspector General and we were informed 
that, to date, six cases of disability fraud from Operation 
Safe Pilot had been identified for their purposes. They report 
total monetary achievements--and that is their term--of 
$499,706 achieved from Operation Safe Pilot. The breakdown 
includes $425,160 in savings due to canceled benefits 
extrapolated over a period of five years; $66,513 in fraud 
identified; and $8,033 recovered by way of restitution.
    It is clear that, while Social Security has identified six 
cases to date, they have informed us that they continue to work 
other cases, so a limited number of subsequent court cases may 
well come to our attention. Comparing that against the number 
of cases which we identified and which the U.S. attorney chose 
to prosecute, it is clear that the intent on the part of most 
of the pilots that we identified as investigative targets was 
to deceive the FAA, as opposed to the Social Security 
Administration.
    Mr. Petri. Thank you.
    Mr. Costello. The Chair recognizes the gentleman from New 
York, Mr. Hall.
    Mr. Hall. Thank you, Mr. Chairman, Mr. Ranking Member, and 
our esteemed witnesses.
    Inspector General, what do you estimate that it costs per 
prosecution to carry out Operation Safe Pilot, and would the 
FAA likely incur similar costs if they were to pursue 
administrative sanctions? If not, what would account for the 
difference?
    Mr. Scovel. Thank you, Mr. Hall. We had an opportunity to 
evaluate the cost to my office of pursuing Operation Safe 
Pilot. They amounted to a total of $401,192. The majority of 
that had to be charged to the direct labor hours of the 
investigation, but we also incurred administrative overhead 
costs, some travel costs, and other direct costs. That cost 
figure did not include FAA or U.S. Attorney Office costs, I 
should note.
    The cost per case prosecuted--and I will note that there 
were 45 cases prosecuted--was $8,915 per case. My testimony 
mentioned the figure of 48 cases. Those were the number of 
individuals that we referred to the U.S. attorney for 
consideration for prosecution. Three of those cases could not 
be pursued, as I mentioned in my testimony, two because the 
individuals died before the U.S. attorney could bring charges 
and one because the individual was deemed to lack sufficient 
capacity to participate in his defense at trial.
    Mr. Hall. Thank you. On another topic, during Operation 
Safe Pilot, did you find that the falsifications were more 
prevalent in the general aviation community or were cases where 
cargo or air transportation pilots were not being truthful? And 
do these categories pose a higher safety risk than GA pilots?
    Mr. Scovel. Thanks. I will note that among the cases that 
we identified and referred to the U.S. attorney, there were 4 
airline transport-rated pilots, 6 commercial pilots, 28 private 
pilots, and 7 student pilots. The figure of 28 private pilots, 
presumably all GA pilots, amounted to 62 percent of the number 
of cases we referred to the U.S. attorney. I don't think, and I 
won't say today on the record, that that indicates that general 
aviation pilots pose a greater threat. The reason, as I see it, 
that, in fact, 62 percent of our investigative targets happen 
to be private and presumably GA pilots was simply because of 
the investigative parameters that we and the U.S. Attorney's 
Office set. In other words, we were looking at the type of 
disability claimed, the nature and duration of the 
falsification that had been submitted to FAA as part of the 
medical certificate application, and also the U.S. attorney's 
prosecutive requirements; they basically were looking for open 
and shut cases. Applying all of those factors to the number of 
cases that we had under consideration, more private pilots--in 
fact, 62 percent--rose to the surface, and air transport pilots 
and commercial pilots represented smaller numbers.
    Mr. Hall. Thank you, sir.
    This one is both to Dr. Garber and to Mr. Sabatini. The 
Inspector General's testimony notes that the FAA and SSA are 
trying to work in compliance under the Privacy Act to create a 
list to cross-check applicants who may not have disclosed this 
potentially disqualifying type of condition. In your 
estimation, can the system be set up within the current 
structure of the Privacy Act or, at some point, does Congress 
need to consider amending the statute to allow the process to 
move forward?
    Dr. Garber. I think that that question probably would be 
better handled by Mr. Sabatini, as it goes to the sharing of 
information between those two agencies, so I will defer to him 
on that question.
    Mr. Sabatini. What we are proposing is a notice in the 
Federal Register to inform the public about routine use of 
information that would be available through the Social Security 
Administration database and our database. As to the Privacy 
Act, I would have to defer to our attorneys to answer that 
question, since that is more of a legal issue, but certainly we 
would respect whatever the requirements are of the Privacy Act.
    Mr. Hall. Are there technological or proprietary barriers 
to moving forward in terms of this coordination with SSA and 
FAA?
    Mr. Sabatini. We are in discussions with the Social 
Security Administration, the Social Security Administration 
Office of the Inspector General, and, of course, our people, 
working out a memorandum of understanding on how best to 
implement this.
    Mr. Hall. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the gentleman from New York, Mr. Kuhl. You pass? 
Very good.
    The Chair now recognizes the gentleman from North Carolina, 
Mr. Hayes.
    Mr. Hayes. Thank you, Mr. Chairman, and thank you very much 
for having a very worthwhile and thoughtful hearing on an 
important safety issue. I thank Mr. Oberstar, as well, for his 
interest and concern in this vital matter.
    Thank you all for very extensive and informative testimony. 
As a pilot--I was just looking--the form that we fill out is 
quite comprehensive in nature and it can lead in a number of 
different directions. Safety is the issue which everyone in 
this room holds above_by considerable margins_anything else we 
are talking about.
    So, with that as a backdrop, would you all care to 
speculate out loud about the dangers we face? We have talked 
about medical issues, we have talked about falsification, all 
of which are very serious. We have talked about jointly looking 
at double-dipping. All these are crucial. Having said that, 
again, do you have any concern that we might get beyond where 
we need to go and make this complicated form even more 
complicated, which, at the end of the day, puts a damper on the 
vital commerce provided by commercial_and that is an issue, 
because some of the things we do here concern commercial 
pilots_that the process may be slowed down for them. By the 
same token, general aviation and that group of pilots is 
important to business and commerce as well.
    Could you just speculate for me about some of the 
precautionary measures that we, on both sides of the bench, 
should be aware of as we move forward in this very important 
process? Dr. Tilton, we have left you alone. May I start with 
you?
    Dr. Tilton. Thank you, sir, for the question. I am 
certainly, obviously, very concerned. As you said, safety is 
paramount. I work for Mr. Sabatini in the Office of the 
Associate Administrator for Aviation Safety, so whenever I give 
a talk, the first thing I say is the safety of the airspace is 
number one; and then number two is to make sure, once we make 
that as the ground assumption, that every airman that we can 
possibly get back in the air, we do so. And we have a good 
record. Obviously, we are very concerned about the small 
minority of people who might take advantage of the system and 
give us incorrect information.
    And I am concerned somewhat about making the process more 
complicated, but I think what we proposed are the correct level 
of response to the IG's investigation. I don't think that we 
are asking for any more ominous requirements on the part of the 
airman; we are just making the questions a little more explicit 
so there is absolutely no question in his or her mind that, 
when they answer the question, they are doing it correctly. And 
it give us one more opportunity to make sure the airspace is 
safe.
    Certainly, I am not interested in making the system more 
egregious and difficult to participate in, but I think safety, 
again, is paramount in this situation.
    Mr. Hayes. Thank you very much. At the risk of sounding 
like doing a promotion for AOPA, which is not my intention, I 
held up the AOPA turbo medical, which is an online service that 
pilots who are for the first time or going to renew their 
certificate, can go online and look at some of the very 
complicated but relevant chemical and other issues there are. I 
am working with constituents right now. If you check off a 
block that says ``have you ever been unconscious,'' then a 
whole host of things happens to you. In this particular case, 
there was an automobile accident and the law enforcement 
officer said the person was unconscious and he says he never 
was. Well, if he was never unconscious, his life is much 
easier. Again, neurological issues are important. I simply make 
the point, going forward, that I would encourage the 
continuation of this process, but filtering in as heavy a dose 
of common and practical sense as we can moving forward.
    Again, this is kind of off the wall, it is not in the 
official questions, but is there an appropriate place to 
consider even a fourth class medical? It is kind of like 
somebody learning to drive. If you are out in the pasture and 
there is not a tree within 300 yards, and you are driving and 
learning, that is one thing. There is a lot of aviation that 
relates to that, as opposed to using sophisticated aircraft in 
congested area space. Good reason for first, second, and third 
class. Is there any fault, again, as a part of this effort, to 
improve safety and focus on the right areas that maybe even an 
additional to correspond with sport class license might be 
appropriate.
    Mr. Sabatini or Dr. Tilton? Anyone. My time has expired.
    Mr. Sabatini. Thank you, Mr. Hayes. We do not now have any 
thoughts about a fourth class medical certificate, but we do 
have different grades, the first, second, and third; and we 
also have, for light support aviators, other conditions under 
which they cannot safely operate. That was done through a very 
rigorous process of an NPRM and comments from the general 
public, and we are convinced that is a safe approach. So, in 
essence, there almost is something like a fourth class medical 
certificate.
    Mr. Hayes. Thank you, Mr. Chairman. I have taken it over my 
time, but I appreciate your thoughtful responses as we work 
toward better aviation safety and a practical response. Thank 
you very much.
    Mr. Costello. The Chair thanks the gentleman and now 
recognizes the distinguished Chairman of the Full Committee, 
Chairman Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman.
    Dr. Garber, in your statement you allude to the number of 
aviation accidents where medical conditions contributed to, or 
were a factor, and say that that number is underestimated. What 
was your basis for that?
    Dr. Garber. Well, we don't have the resources, sir, the 
NTSB does not have the resources to do a complete aeromedical 
investigation of every single accident. We focus on those 
accidents where there is evidence, either from autopsy 
information, toxicology information, or the circumstances of 
the accident itself, suggesting in fact that there may be 
medical or medication issues in regard to the accident itself. 
So those are the ones that we look at.
    Given that, there are probably some of those that we are 
not able to make a determination; there is simply insufficient 
information available, even with a comprehensive investigation, 
to come to a conclusion as to whether or not the medical 
condition or the medication played a role in the accident. For 
that reason I say that the circumstances are certainly 
underestimated. To that extent, it is difficult to say, but I 
would say that we do a thorough job investigating those where 
we have significant information suggesting that the individual 
may have been impaired.
    Mr. Oberstar. You had a staff review of 20,000 aviation 
accidents, which you reviewed, since 1995 and found 327 in 
which a medical condition, impairment or incapacitation, 
including over-the-counter medications, antihistamines and 
commonly known name of Benadryl. So it raises the question what 
makes a condition a disqualifying condition. Some of these are 
cardiac valve replacements; diabetes requires insulin; 
epilepsy. What other conditions are disqualifying? And what 
medications taken randomly, even over-the-counter medications, 
can cause incapacitation?
    Dr. Garber. Sir, I will speak a little bit to the 
medication issue in that the NTSB has recommended more 
comprehensive information be provided to pilots and other 
transportation operators with regard to the medication issue. 
There is no real comprehensive list of medications that are 
either disqualifying or permitted within the transportation 
industry or oversight regulatory area, so it is very difficult 
to determine which medications, from an operator perspective, 
would be allowed or would be disallowed if one was to indicate 
that they were using those; and we believe that that should be 
corrected. The NTSB has made recommendations in regard to that.
    With regard to the question about the medical conditions 
which are disqualifying and why, I think I will defer that 
question to the FAA. They can give you more background as to 
why they have chosen the particular conditions that they have 
as being disqualifying in that regard.
    Mr. Oberstar. I will pursue that in a moment. Recently, the 
Board made a recommendation that FAA should require airmen 
reporting conditions involving driving while impaired by 
alcohol or drugs to provide a complete copy of the relevant 
arrest report, including, maybe, court records. Why do you 
believe that is necessary?
    Dr. Garber. In the same way that the FAA requires records 
to be submitted on any disqualifying condition. If you were to 
mention to the FAA, as an example, that you had been in an 
emergency room for chest pain, they would request information 
as to the outcome of that evaluation and the specific 
information that was developed during that evaluation. In the 
same way, we think it is very important for circumstances like 
a DUI, which are significant indicators of a potential problem 
with substance abuse or dependence, should be evaluated more 
completely. An individual who may have had one or two drinks 
may not have an issue with abuse of the substance or 
dependence, but an individual who is driving on a very high 
level of alcohol may certainly be exhibiting evidence of 
tolerance, which, by the FAA's own definition, is an indication 
of substance dependence.
    Mr. Oberstar. Well, I think it is an important 
recommendation and an important action to take because that 
arrest report gives a complete picture, not just a little 
slice, not just a little subtitle or headline; but it gives the 
medical examiner an opportunity for a complete review of the 
circumstances. As Mr. Hayes referenced a moment ago, the 
question of ``were you ever unconscious.'' Well, under what 
circumstances? The arrest report would provide that kind of 
information.
    In the course of NTSB review of all--you looked at 20,000 
records, you at NTSB and your staff followed these issues very 
thoroughly, very carefully. Are you persuaded that the airman 
medical evaluation is rigorous enough? Should the whole process 
be reconsidered, re-evaluated?
    I want to get Mr. Scovel's reaction to that as well.
    Dr. Garber. The NTSB has made specific recommendations in a 
variety of areas; for instance, medications and substance 
dependence, as we have discussed here. Also, we have commented 
that we believe that there should be a reporting requirement to 
the system itself. The system itself, however, is fairly 
robust, like many other areas of aviation, and provides a 
significant review of those conditions under fairly strict 
guidelines, and in that regard probably is something of a model 
for other agencies, other organizations that share the same 
sort of regulatory oversight. There are areas for improvement, 
and the NTSB has certainly specified the areas where we believe 
improvement is both possible and should be made in the interest 
of safety. At the same time, we do recognize that this is a 
significant oversight function which is generally performed in 
a fairly substantial manner by the FAA.
    Mr. Oberstar. Mr. Scovel, have you evaluated the airman 
medical review and do you think it is adequate as it stands, or 
should it be overhauled?
    Mr. Scovel. Good morning, Mr. Chairman. I would begin by 
noting that my testimony this morning, of course, is based on 
Operation Safe Pilot, which was a criminal investigation 
project undertaken in one corner of the Country, really. We 
have not audited a full-blown audit of the Airman Medical 
Certification Program, so I am not able to say with authority 
that the program itself is systemically deficient.
    I think we can say, however, based on both the results of 
Operation Safe Pilot and on the results of an FAA survey from 
2006, which was referred to by the Committee earlier, that 
improvement in oversight certainly is to be desired. Operation 
Safe Pilot identified some limited systemic problems and we 
have suggested improvements to FAA and to the Committee to 
remedy those. The 2006 survey, which, to its credit, FAA itself 
undertook--it was not an IG project--identified problems, 
however, with the airman medical examination itself. Some of 
those examinations, as reported by airmen, had been conducted 
not by physicians, but by non-physicians. In a significant 
number of instances there was no detailed inquiry during the 
examination of the airman's reported medical history. That too 
is required by FAA regulations. We would encourage the 
Committee and, of course, FAA to tighten up its oversight and 
the procedures involved in the actual examination that airmen 
undergo by Airman Medical Examiners, too.
    Mr. Oberstar. Thank you, Mr. Scovel.
    Dr. Tilton, are you satisfied that FAA's AME is as good as 
it should be, needs to be?
    Dr. Tilton. Sir, I am satisfied that the process----
    Mr. Oberstar. And enough oversight of the process and 
enforcement?
    Dr. Tilton. I am certainly satisfied that the standards we 
have and the process we have set up is correct. I am obviously 
not satisfied by results of the survey that the IG just told 
you about and that you have referred to because we always have 
concerns any time we find out someone is not complying or 
following the correct process. So, in the case of this 
particular survey, it was an anonymous survey, so how do we 
then proceed upon reviewing the results and making a 
determination? What we do is, we talk to our AMEs. And the 
purpose of the bulletin, where you noted that particular 
survey, is education to the AMEs on how they should be 
educating their airmen. The other thing that we do is, we go to 
air shows. For instance, in a week or so I will be at Oshkosh; 
we go to Sun 'n Fun and we talk to airmen directly. In every 
seminar we have with airmen, we talk to them about the 
importance of the system, and we also tell them if they find an 
AME like the ones that are reported in this anonymous survey, 
they should let us know. And when we know that information, we 
take positive action against that AME to make sure that he or 
she is appropriately disciplined, including de-designation.
    So although I think we need to do more, we always can do 
more, I think we have a good system. We need to keep looking at 
it and making sure that every time we find information like 
this, we take positive action to correct it.
    Mr. Oberstar. Well, taking the positive action is 
critically important, and strong enforcement action.
    Mr. Sabatini, an FAA researcher last winter found, during a 
10 year period, 10 percent of pilots involved in fatal 
accidents tested positive for medications used to treat 
potentially disqualifying medical conditions, but only 20 
percent of them reported their medical condition on their 
airman application. Is that acceptable?
    Mr. Sabatini. Absolutely not, sir. As I said in my opening 
comments and my closing comment, safety is paramount for us, 
and every system can stand improvement, and I can assure you, 
Mr. Chairman, that we will vigorously pursue anyone who 
falsifies information provided as required to be provided.
    I would also like to point out that while this report, this 
survey that is being discussed here was exactly that, it was 
anonymous to solicit information, again, it is an indication of 
how the FAA is being vigilant to assess what is going on in a 
system that is highly dependent on voluntary compliance.
    I would also add that the recommendation that was made by 
the NTSB has been taken very seriously by us, and, in 
discussions as recent as this past week, I can assure you that 
we will be taking the kind of action that is going to require 
an airman to provide us with the full record of that person's 
arrest or conviction, or whatever the case may be, as well as 
exploring whether we can, in fact, get that record from the law 
enforcement organization. So it is a new area for us, but we 
take very seriously what has been recommended. It makes good 
sense. There is a possibility of tolerance. That is 
unacceptable in our community, and we are working vigorously to 
address these areas of, as has been said, in the area of 
oversight.
    I would also tell you, as Dr. Tilton has said, the 
standards that we have are global standards. We are sought 
after and asked to share with the global community how we go 
about the business of certifying from, a medical perspective, 
our airmen. So I believe the standard is more than adequate and 
I would tell you that the FAA is vigilant and will continue to 
be vigorous in its pursuit of anyone who misrepresents 
information.
    Mr. Oberstar. We are counting on you to be vigilant. We are 
counting on FAA to be the gold standard for the whole world in 
all of aviation safety, and that means pursuing these matters 
vigorously. In that analysis of the research, 40 percent of 
those pilots were rated for air transport or cargo operations. 
It didn't say whether they actually were operating as Part 121 
pilots, but it is troubling that apparently these more 
stringent medical exams were not applied in those cases. You 
are going to correct that?
    Mr. Sabatini. Oh, absolutely, sir. Yes, sir.
    Mr. Oberstar. All right, thank you.
    Thank you, Mr. Chairman.
    Mr. Costello. Thank you.
    The Chair now recognizes Mr. Reichert.
    Mr. Reichert. Thank you, Mr. Chairman. I would like to 
follow up on a couple of comments and a couple of lines of 
questioning by Mr. Oberstar and Mr. Petri that has to do with 
process.
    I am not a pilot, but I fly a lot as a passenger, and have 
over the last number of years. But what I have done in my past 
career is investigate; 33 years with the sheriff's office in 
Seattle. My last eight years was as the sheriff. We have an air 
support unit there, so I have been responsible for, of course, 
making sure that our pilots are trained well and meet the 
medical requirements. And as you know, safety, of course, is 
our number one priority in the sheriff's office, too. And here, 
today, we are talking about safety and keeping our airlines 
safe and the pilots safe and the passengers safe.
    Again, the process is_it seems like there are a lot of 
moving pieces here, for me. The medical evaluation and the 
medical application is completed; there is an employment 
application. Does that marry up? Do those two documents marry 
up when the pilots apply--in the case of a commercial pilot--to 
the airlines for a job? How does that work? Or do they have 
their own separate medical document that they need to complete?
    Mr. Sabatini. First of all, let me say that we have a lot 
in common. I am a retired New York City police officer, spent 
20 years in the NYPD, 11 of those years flying in the air unit. 
So I am very familiar with that kind of support.
    Mr. Reichert. Thank you for your service.
    Mr. Sabatini. I would say that the medical certificate is 
required to be provided as evidence to a potential employer as 
to the qualifications that are required for that particular 
position. You will then be subjected to, say, an air carrier's 
own medical examination as well. So, in that sense they come 
together. Whether the air carrier in fact researches the 
medical certificate, I can't answer that with certainty at this 
point in time.
    Mr. Reichert. You know, in the NYPD and in the King County 
Sheriff's Office, as you go through this process of hiring 
someone, a medical application is completed, there is a release 
that is signed for medical records. Does that occur in the 
pilot field?
    Mr. Sabatini. Before someone can be hired in the air 
carrier world, I know the acronym, I can't think of the actual 
description, but it's the pilot record, PRIA, that has to be 
complied with in terms of_the air carrier has access to the 
previous history of the pilot, and I believe that will include 
the medical certificate as well.
    Mr. Reichert. So as these applications are completed, is 
there--we have background investigators that go out to the 
sites and visit with neighbors and friends of people applying 
for a job. Is there a polygraph given to prospective employees 
of airline companies?
    Mr. Sabatini. I don't know of any air carrier, so I can't 
speak with authority on it, but I doubt that there would be a 
polygraph. There are many examinations that are required, 
written exams or questions that need to be answered. But I will 
tell you this, that the system is a robust system. Before 
someone actually ends up at the controls of an aircraft--and 
let's use the air carrier world as an example--one must go 
through required training, basic indoctrination to that air 
carrier's system. And that is not an option, it is required by 
Federal regulation. Once the training is complete, then that 
person must demonstrate through a flight check with their own 
instructors that the person is competent and proficient in that 
particular pilot station that person may be sitting in; then 
followed by an FAA proficiency check to ensure that that person 
can in fact execute the responsibilities of that position.
    Mr. Reichert. Thank you. My time is really going by here 
fast. In the law enforcement world, you fill out this 
application, you know, ``have you used drugs in the past;'' 
and, of course, there are time limits on some of the more major 
drugs. Marijuana is also listed on there; how long ago did you 
use it, those sorts of things. And when those questions are 
asked on the medical application, the polygraph test is given 
and they say on the application ``we have never taken this 
drug, we have never taken this drug,'' and it has been 10 years 
since but it has been 5 years in reality. A polygraph test 
catches that sort of thing.
    The other thing is, we have a fit-for-duty, as you know, in 
law enforcement. When you recognize something with a pilot, is 
there a fit-for-duty examination?
    And the last comment I want to make here, before you 
respond, is the connection between SSA and the FAA and medical 
records--and you say if they are on Social Security, there is 
100 percent disability. There is no need, then, to really know 
what the personal medical history is if the Social Security 
system has already reviewed that, given the 100 percent 
disability. All you need to know is if he or she is on Social 
Security, and they are gone.
    I am over time, but could they answer, Mr. Chair? Thank 
you.
    Mr. Sabatini. That is true. We would, at that point in 
time, if it was an SSA disability, that person would 
automatically be disqualified. But there is a due process that 
we must follow and revoke that medical certificate.
    Mr. Costello. The Chair thanks the gentleman.
    Mr. Sabatini and Dr. Tilton, you have heard from the 
Chairman of the Full Committee, Chairman Oberstar, and I think 
other Members of this Subcommittee were pleased that the FAA is 
moving in the right direction to correct some of these 
problems, one, by looking at the database and working with the 
Social Security Administration; two, by revising the form to 
specifically ask the question if the applicant is receiving any 
disability. So we are pleased that you are moving in that 
direction.
    You heard Mr. Scovel testify that there are improvements 
that need to come about in oversight. Also, the fact that there 
were some examinations apparently given by non-medical doctors. 
I want to give both of you the opportunity to comment on both 
of those issues, on improving oversight and the fact that 
apparently some examinations have been given by non-medical 
doctors. I wish you would comment on both, please.
    Mr. Sabatini. Sir, let me give you my first response in 
terms of non-medical. Again, it is the FAA aggressively 
pursuing information that can help us be good at the work that 
we are responsible for, and that is the oversight of the 
system. I would suspect that--first, let me say that no one has 
ever been issued a medical certificate that was not signed off 
by a doctor. So perhaps in the office--and this is speculation 
on my part, and that is the issue that we have in terms of 
surveys that are anonymous_we can't pursue that person and find 
out exactly what they are referring to. But it is possible that 
there are physician assistants who performs a preliminary 
medical examination and then present the information to the 
doctor in the office, and that doctor is then required to, of 
course, be the person who signs off on the medical 
authorization and the issuance of the certificate.
    But I will turn to Dr. Tilton and ask him to expand on 
that.
    Dr. Tilton. I agree with what Mr. Sabatini said. It 
certainly is possible that occurred. It is not in line with our 
process. We do use ancillary personnel to do things such as 
EKGs or draw blood or check the blood pressure, but the AME, he 
or she, is duly responsible to do that examination; they are 
required to lay hands on the patient, to do the various tests 
that the physician should be doing to ensure to him or herself 
that that is done correctly.
    Whenever we find out that there is a case where that hasn't 
been done, we take aggressive action against that AME. It is 
difficult sometimes to get that information, and we have heard 
anecdotes about some people traveling a long way to get their 
physical because they know if they pay such an amount of money, 
they will get it without a whole lot of difficulty involving 
the AME himself. When we find out about that case, we take 
action against those; and we rarely find those. In fact, we 
have a process now that we look at all our AMEs; we look at how 
many examinations they do, we look at where they are located, 
we look at how far people travel to get to that AME to compare 
distances. For instance, if someone has traveled 3,000 miles to 
get their physical_why? We have a good example of that in 
Prescott, Arizona. Although Prescott, Arizona has the school 
Embry-Riddle, so there is good reason why people coming from 
some other State might have their physicals there. We haven't 
found any meat in that data, although we have reviewed it very 
carefully.
    I am very concerned about this information where we hear 
that an AME has not done the physical correctly or they haven't 
seen the doctor, and when we find that out, we will take 
aggressive action to make sure that doesn't happen again.
    Mr. Costello. Dr. Garber mentions in his statement the fact 
that he talks about anonymous reporting, and I am just curious 
how many anonymous reports on a pilot's medical condition does 
the FAA receive? Is it a large number or is it rare that 
someone anonymously reports a medical condition to the FAA of a 
pilot?
    Dr. Tilton. Sir, I wouldn't say it is--it is not every day, 
but it is not rare, either. We get several anonymous reports 
yearly, and what we do with those reports is we immediately go 
out to that airman and we acknowledge that we have information 
that may affect that airman's privileges, and we ask them for 
more information. Of course, with an anonymous report, 
sometimes we find out it was somebody who had some kind of 
reason, an ex-wife or something, and that does occur 
occasionally. But we do take action; we ask for more 
information. Sometimes we get family members saying, you know, 
my husband is 86 years old and I am really concerned and I 
don't want to do anything about it myself, but I would really 
like you to do something. We will pursue that; we will ask for 
more medical information to see if there is substance. If there 
is substance, we take action.
    Mr. Costello. Last question. I think we all recognize that 
some pilots have intentionally failed to disclose information 
on their applications and others inadvertently leave off, omit, 
or fail to report either medication or other debilitating 
illnesses. Both the IG and AOPA have suggested that there 
should be an amnesty period before we begin to do the match-up, 
the matching program, and I just want your comments, Mr. 
Sabatini and Dr. Tilton. Do you believe that we, in fact, 
should proceed with an amnesty program? Please.
    Mr. Sabatini. I believe a grace period would be an 
appropriate action to take, but I would caution so that we all 
understand. In those circumstances where someone were to reveal 
a medical condition that would be disqualifying, we would still 
take the appropriate revocation action of that medical 
certificate, even though they came forward voluntarily and 
revealed that condition. In other circumstances we would not 
pursue any punitive action.
    Mr. Costello. The Chair thanks you, Mr. Sabatini, Dr. 
Tilton, Dr. Garber, and Mr. Scovel, for your testimony today, 
and we look forward to following up on this important issue 
with the FAA as they move forward to implement this program. We 
thank you, and the first panel is dismissed.
    We would ask the second panel, consisting of one witness, 
to come forward, please.
    Let me recognize and introduce our sole witness on the 
second panel and let Members know, and the first panel know, of 
course, as always, that there are questions that we will submit 
both for the first panel and Mr. Boyer, as well, in writing for 
the record. So we want both Members and witnesses to know that.
    We recognize now Mr. Phil Boyer, the President of the 
Aircraft Owners and Pilots Association, for his testimony. And 
let me say, before you present your testimony, Mr. Boyer, we 
greatly appreciate both you and your organization taking this 
issue very seriously and coming up with a four-point plan to 
address the issue, and we look forward to hearing your 
testimony and hearing you explain what that plan is about.

TESTIMONY OF PHIL BOYER, PRESIDENT, AIRCRAFT OWNERS AND PILOTS 
                   ASSOCIATION, FREDERICK, MD

    Mr. Boyer. Well, thank you, Mr. Chairman. Just before 
starting, not exactly the appropriate place, but I would like 
to thank you, your leadership, the Committee, Ranking Member 
Petri for a really sane approach to financing the entire FAA, 
not just the section we are talking about here. You have our 
undivided support of all of our membership for H.R. 2881.
    You know about us, 412,000 members. That is two-thirds of 
all of those certificates that were reported earlier. And, in 
the main, many of these are the private pilots that we were 
talking about. The organization has always taken medical 
services very, very seriously. As a matter of fact, there are 
about 30,000 member contacts a year, 13,000 of those by phone 
that we answer. So it is a good example of industry and the 
industry self-policing itself. We even cover non-members. We 
talk about medical action in magazines and in our electronic 
publications, including the website.
    Let me tell you--and pardon me, Mr. Graves, for talking 
about something you know about--a medical certificate is a 
pilot's most prized possession. It is sacred. I mean, getting a 
license is one thing, but let's not forget, you must be 
medically certified to be in one of these categories that we 
are talking about. Therefore, when ramp checked or anything 
else, a pilot has to have not only the original license of 
issue, but also that medical certificate, and since 9/11, 
through the actions of our group, a photo ID.
    Once again, pardon me, Sam, but just to clarify, there are 
three levels of medical certification. The third class, that is 
somebody who flies not for hire, generally taking a family, a 
business associate, somebody who knows them up; not, as was 
mentioned, somebody who is flying or taking up in law 
enforcement. That is good for three years except, for most of 
us over 40, for two years we go to the doctor. And, actually, 
there is a proposal and a ruling right now on the docket that 
would--a notice of proposed rulemaking that would extend that 
period to five years. It is an example of our talking about an 
issue that is constantly changing. The technology, the 
medicines really do need to be looked at, and not stay with 
rules from 1940 or earlier, when we are looking at what we 
certify and what we don't certify; and, as we all know, that 
brings us a lot of longevity.
    The second class medical, which is the first place in which 
you would fly for hire or carry passengers, is used for the 
commercial pilot certificate. It is good for one year. And then 
the airline pilots that we were talking about have to go for a 
medical--and the corporate aircraft--every six months. And this 
rulemaking I talked about is being proposed to extend that to 
one year.
    One thing that wasn't brought up that I think is very, very 
interesting and should be considered as we talk about that is 
the FARs continue to emphasize that the pilot must determine 
that he or she is healthy to fly before every flight. And it is 
a violation of the rules--whether you are taking an 
antihistamine, a prescription drug, or whatever--if you are not 
self-certifying before flights. And those of us who have flown 
many times know bad cold, maybe an injury to the foot or 
something that might affect a rudder pedal is a reason we might 
have another pilot onboard flying our plane.
    Just to look at the misconception out there is_you heard a 
lot of statistics. In the end, we are dealing with reasonable 
people who don't want to go out and kill themselves and their 
family; a very conservative group of people who will ground 
themselves before flights when they are taking a medication or 
have some other kind of medical situation; and medical 
incapacitation is rare. One-quarter of one percent of all 
accidents are due to medical incapacitation.
    Now, you heard larger numbers than that, but that would be 
like me looking at somebody who had 50 stab wounds, was 
obviously killed, and then we examined that individual and 
found that they may have had a plaque buildup in their 
arteries. The real reason were those 50 stab wounds. The plane 
ran out of fuel or this or that. But, once again, you heard 
that word ``possibly.'' The actual data shows one-quarter of 
one percent. And if we look at medical fraud, five-one 
hundredths of one percent. Now, once again, we don't condone 
any kind of falsification of fraudulent records.
    And I will tell you, in preparing for this, in talking to 
the Committee, and in really seeing the IG's report, as a 40-
year pilot, I was never aware that this complicated form that 
Congressman Hayes referred to_that there were these kinds of 
penalties if we didn't get something right; and I will tell 
you, it is not difficult to forget that doctor's exam that you 
went to. I just was thinking about, now, where would that apply 
to me when I go in next April. And, you know, I went to the 
doctor about four months ago for a sore in my heel. Turned out 
to be a burr caused by a shoe. I might forget that when I am 
going to an AME. It had nothing to do with my flying. And that 
would be counted as a falsification of the record. So we have 
got to understand that there are inadvertent errors.
    There is a question 17 on here: Do you take any non-
prescription medicines? Somebody starts filling it in and it 
causes you to be kicked back if you, once in a while, take a 
Tylenol. Believe me, in this job, and I am sure in your jobs, 
you have to take one of those every once in a while.
    One of the things I think we want to protect is, that the 
FAA budget, the Civil Aviation Medical Institute is not well 
funded; it is a flat budget. The people that you are looking 
for_Sabatini and Tilton_to do all this fact checking are not 
given a great budget, and right now many of your members 
probably write you and say, ``could you help me get my medical; 
I've put in all the paperwork and it doesn't come through.'' 
That is because this area of FAA has never been given the 
proper money. So if we are going to do other things, let's make 
sure the FAA has the budget to do them.
    And I think the four-point plan that we have outlined--and 
I am not going to take a lot of time on it because, actually, 
you are aware of it in my testimony and it has been spoken to 
already, but we ought to have a warning on the form, a public 
disclosure that the data will be shared with public agencies. 
Let's face it now, security agencies are looking at this, not 
just the driver record. So let's add to that all agencies. And, 
you know what? In September of 2005, when the IG report first 
came out, we wrote a letter to the FAA saying let's do this; 
not waiting for this Committee to have a hearing or anything 
like that.
    Proactively, let's look at identifying falsifications. So 
let's say I had filled out that application last April and I 
hadn't talked about this little burr on the heel of my foot 
when I visited a doctor. Once again, not disqualifying, but I 
didn't put that I had that physician visit. Let's give this 
amnesty period we talked about for people to clear up things 
like that; not that I had heart bypass surgery and I didn't put 
it in. I mean, they will have to go through the rigors of 
getting back in.
    And then I think one of the most important things is a data 
sharing program. Let's not put the onus on the FAA. They don't 
have the budget to do this, and it is going to slow down, it is 
going to increase your e-mail and letter flow, and mine, to 
help pilots as our constituents.
    But the most important thing is we will help. With the size 
of our publications, the size of our organization, the many 
ways to reach pilots, we will get back in and talk about the 
changes that will occur to the medical form. For more than four 
years we have had, like Turbo Tax, a medical form online. It 
was referred to here by Congressman Hayes. It allows you to go 
through, and if you make a mistake or fill in a box wrong--this 
is before you go to the doctor--it kicks it back and says that 
medication is not valid under FAA rules, you may want to try 
this kind of beta blocker or something else.
    For four years we tried to get the FAA to accept this form. 
They spent a lot of money and now have just recently come out 
with their own electronic form, so now they are saying, okay, 
we will accept yours. We had already spent the money and could 
have done it for the FAA, but it is out there and we will 
promote that.
    The penalties_things I didn't know about_we would love to 
let members know that, careful now, this is an important form, 
and if you make a mistake on it, you could be subject to these 
onerous penalties that are out there.
    And the amnesty period. Anything that has to do this. 
Pilots are very law-abiding people and, believe me, they don't 
want to defraud the Government. They don't want to fly 
unsafely.
    And I thank you very much for allowing me this time to 
explain what I think would be a great program for the FAA and 
for AOPA to undertake.
    Mr. Costello. The Chair thanks you, Mr. Boyer, and 
recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you. Thank you for your testimony. 
Obviously, much thought and work was put into it; it was a very 
professional job. I think it does remind us all that we are, in 
our Country, self-governing, and that is how the system really 
works and works best, and if it is driven by the people who are 
involved in these systems, they have the best sense of what is 
working and what is not working, and also incentive to make it 
as effective, but also as simple and user-friendly as possible. 
I hope you may be in Oshkosh. I don't know if you are going to 
be there next week or not. Not this year?
    Mr. Boyer. Oh, I am there for two different sessions.
    Mr. Petri. Oh, you are.
    Mr. Boyer. Four days total.
    Mr. Petri. Then you know the manifestation of pride in 
aviation, and in our Country, really, that is there, and it is 
a unique kind of a thing in all kinds of subtle ways. So 
anything we can do to help you and your association as you 
promote safety and, at the same time, attempt to make this an 
open and accessible process for Americans so that they have the 
freedom to engage in this aspect of science and of life, we are 
eager to work with you on that. Thank you very much for your 
testimony.
    Mr. Costello. Thank you, Mr. Petri.
    Mr. Boyer, I had just a few questions, and you answered 
them in your presentation, so I have no other questions. As you 
indicated, we had a prior discussion several weeks ago, and you 
put together what I think is an action plan that is workable 
and makes sense and is very reasonable. We look forward to 
working with the FAA and other agencies that will be involved 
in the process to follow up as the process goes forward.
    I do believe there should be a grace period. There are many 
pilots out there that, as I mentioned earlier, some may have 
intentionally failed to disclose, but many, many others it is 
just an omission on their part that they forget to put on the 
form. So I believe there should be a grace period, and I think 
a one-year grace period, as AOPA is proposing, is reasonable.
    So we thank you for your testimony. We thank you for your 
always being proactive, and that concludes this hearing.
    [Whereupon, at 11:35 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6735.146
    
    [GRAPHIC] [TIFF OMITTED] T6735.147
    
    [GRAPHIC] [TIFF OMITTED] T6735.148
    
    [GRAPHIC] [TIFF OMITTED] T6735.022
    
    [GRAPHIC] [TIFF OMITTED] T6735.023
    
    [GRAPHIC] [TIFF OMITTED] T6735.024
    
    [GRAPHIC] [TIFF OMITTED] T6735.025
    
    [GRAPHIC] [TIFF OMITTED] T6735.026
    
    [GRAPHIC] [TIFF OMITTED] T6735.027
    
    [GRAPHIC] [TIFF OMITTED] T6735.028
    
    [GRAPHIC] [TIFF OMITTED] T6735.029
    
    [GRAPHIC] [TIFF OMITTED] T6735.030
    
    [GRAPHIC] [TIFF OMITTED] T6735.031
    
    [GRAPHIC] [TIFF OMITTED] T6735.032
    
    [GRAPHIC] [TIFF OMITTED] T6735.033
    
    [GRAPHIC] [TIFF OMITTED] T6735.034
    
    [GRAPHIC] [TIFF OMITTED] T6735.035
    
    [GRAPHIC] [TIFF OMITTED] T6735.036
    
    [GRAPHIC] [TIFF OMITTED] T6735.037
    
    [GRAPHIC] [TIFF OMITTED] T6735.038
    
    [GRAPHIC] [TIFF OMITTED] T6735.039
    
    [GRAPHIC] [TIFF OMITTED] T6735.040
    
    [GRAPHIC] [TIFF OMITTED] T6735.041
    
    [GRAPHIC] [TIFF OMITTED] T6735.042
    
    [GRAPHIC] [TIFF OMITTED] T6735.043
    
    [GRAPHIC] [TIFF OMITTED] T6735.044
    
    [GRAPHIC] [TIFF OMITTED] T6735.045
    
    [GRAPHIC] [TIFF OMITTED] T6735.046
    
    [GRAPHIC] [TIFF OMITTED] T6735.047
    
    [GRAPHIC] [TIFF OMITTED] T6735.048
    
    [GRAPHIC] [TIFF OMITTED] T6735.049
    
    [GRAPHIC] [TIFF OMITTED] T6735.145
    
    [GRAPHIC] [TIFF OMITTED] T6735.050
    
    [GRAPHIC] [TIFF OMITTED] T6735.051
    
    [GRAPHIC] [TIFF OMITTED] T6735.052
    
    [GRAPHIC] [TIFF OMITTED] T6735.053
    
    [GRAPHIC] [TIFF OMITTED] T6735.054
    
    [GRAPHIC] [TIFF OMITTED] T6735.055
    
    [GRAPHIC] [TIFF OMITTED] T6735.056
    
    [GRAPHIC] [TIFF OMITTED] T6735.057
    
    [GRAPHIC] [TIFF OMITTED] T6735.058
    
    [GRAPHIC] [TIFF OMITTED] T6735.059
    
    [GRAPHIC] [TIFF OMITTED] T6735.060
    
    [GRAPHIC] [TIFF OMITTED] T6735.061
    
    [GRAPHIC] [TIFF OMITTED] T6735.062
    
    [GRAPHIC] [TIFF OMITTED] T6735.063
    
    [GRAPHIC] [TIFF OMITTED] T6735.064
    
    [GRAPHIC] [TIFF OMITTED] T6735.065
    
    [GRAPHIC] [TIFF OMITTED] T6735.066
    
    [GRAPHIC] [TIFF OMITTED] T6735.067
    
    [GRAPHIC] [TIFF OMITTED] T6735.068
    
    [GRAPHIC] [TIFF OMITTED] T6735.069
    
    [GRAPHIC] [TIFF OMITTED] T6735.070
    
    [GRAPHIC] [TIFF OMITTED] T6735.071
    
    [GRAPHIC] [TIFF OMITTED] T6735.072
    
    [GRAPHIC] [TIFF OMITTED] T6735.073
    
    [GRAPHIC] [TIFF OMITTED] T6735.074
    
    [GRAPHIC] [TIFF OMITTED] T6735.075
    
    [GRAPHIC] [TIFF OMITTED] T6735.076
    
    [GRAPHIC] [TIFF OMITTED] T6735.077
    
    [GRAPHIC] [TIFF OMITTED] T6735.078
    
    [GRAPHIC] [TIFF OMITTED] T6735.079
    
    [GRAPHIC] [TIFF OMITTED] T6735.080
    
    [GRAPHIC] [TIFF OMITTED] T6735.081
    
    [GRAPHIC] [TIFF OMITTED] T6735.082
    
    [GRAPHIC] [TIFF OMITTED] T6735.083
    
    [GRAPHIC] [TIFF OMITTED] T6735.084
    
    [GRAPHIC] [TIFF OMITTED] T6735.085
    
    [GRAPHIC] [TIFF OMITTED] T6735.086
    
    [GRAPHIC] [TIFF OMITTED] T6735.087
    
    [GRAPHIC] [TIFF OMITTED] T6735.088
    
    [GRAPHIC] [TIFF OMITTED] T6735.089
    
    [GRAPHIC] [TIFF OMITTED] T6735.090
    
    [GRAPHIC] [TIFF OMITTED] T6735.091
    
    [GRAPHIC] [TIFF OMITTED] T6735.092
    
    [GRAPHIC] [TIFF OMITTED] T6735.093
    
    [GRAPHIC] [TIFF OMITTED] T6735.094
    
    [GRAPHIC] [TIFF OMITTED] T6735.095
    
    [GRAPHIC] [TIFF OMITTED] T6735.096
    
    [GRAPHIC] [TIFF OMITTED] T6735.097
    
    [GRAPHIC] [TIFF OMITTED] T6735.098
    
    [GRAPHIC] [TIFF OMITTED] T6735.099
    
    [GRAPHIC] [TIFF OMITTED] T6735.100
    
    [GRAPHIC] [TIFF OMITTED] T6735.101
    
    [GRAPHIC] [TIFF OMITTED] T6735.102
    
    [GRAPHIC] [TIFF OMITTED] T6735.103
    
    [GRAPHIC] [TIFF OMITTED] T6735.104
    
    [GRAPHIC] [TIFF OMITTED] T6735.105
    
    [GRAPHIC] [TIFF OMITTED] T6735.106
    
    [GRAPHIC] [TIFF OMITTED] T6735.107
    
    [GRAPHIC] [TIFF OMITTED] T6735.108
    
    [GRAPHIC] [TIFF OMITTED] T6735.109
    
    [GRAPHIC] [TIFF OMITTED] T6735.110
    
    [GRAPHIC] [TIFF OMITTED] T6735.111
    
    [GRAPHIC] [TIFF OMITTED] T6735.112
    
    [GRAPHIC] [TIFF OMITTED] T6735.113
    
    [GRAPHIC] [TIFF OMITTED] T6735.114
    
    [GRAPHIC] [TIFF OMITTED] T6735.115
    
    [GRAPHIC] [TIFF OMITTED] T6735.116
    
    [GRAPHIC] [TIFF OMITTED] T6735.117
    
    [GRAPHIC] [TIFF OMITTED] T6735.118
    
    [GRAPHIC] [TIFF OMITTED] T6735.119
    
    [GRAPHIC] [TIFF OMITTED] T6735.120
    
    [GRAPHIC] [TIFF OMITTED] T6735.121
    
    [GRAPHIC] [TIFF OMITTED] T6735.122
    
    [GRAPHIC] [TIFF OMITTED] T6735.123
    
    [GRAPHIC] [TIFF OMITTED] T6735.124
    
    [GRAPHIC] [TIFF OMITTED] T6735.125
    
    [GRAPHIC] [TIFF OMITTED] T6735.126
    
    [GRAPHIC] [TIFF OMITTED] T6735.127
    
    [GRAPHIC] [TIFF OMITTED] T6735.128
    
    [GRAPHIC] [TIFF OMITTED] T6735.129
    
    [GRAPHIC] [TIFF OMITTED] T6735.130
    
    [GRAPHIC] [TIFF OMITTED] T6735.131
    
    [GRAPHIC] [TIFF OMITTED] T6735.132
    
    [GRAPHIC] [TIFF OMITTED] T6735.133
    
    [GRAPHIC] [TIFF OMITTED] T6735.134
    
    [GRAPHIC] [TIFF OMITTED] T6735.135
    
    [GRAPHIC] [TIFF OMITTED] T6735.136
    
    [GRAPHIC] [TIFF OMITTED] T6735.137
    
    [GRAPHIC] [TIFF OMITTED] T6735.138
    
    [GRAPHIC] [TIFF OMITTED] T6735.139
    
    [GRAPHIC] [TIFF OMITTED] T6735.140
    
    [GRAPHIC] [TIFF OMITTED] T6735.141
    
    [GRAPHIC] [TIFF OMITTED] T6735.142
    
    [GRAPHIC] [TIFF OMITTED] T6735.143
    
    [GRAPHIC] [TIFF OMITTED] T6735.144
    
                                    

</pre></body></html>
